    DATA SUPPORTING THE ENVIRONMENTAL LIABILITY
  LINE ITEM ON THE FY 1999 DOD FINANCIAL STATEMENTS

Report No. D-2000-168                          July 27, 2000




             Office of the Inspector General
                 Department of Defense
  Additional Copies

  To obtain additional copies of this audit report, contact the Secondary Reports
  Distribution Unit of the Audit Followup and Technical Support Directorate at
  (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932 or visit the Inspector
  General, DoD, Home Page at: www.dodig.osd.mil.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or
  fax (703) 604-8932. Ideas and requests can also be mailed to:

                    OAIG-AUD (ATTN: AFTS Audit Suggestions)
                     Inspector General, Department of Defense
                        400 Army Navy Drive (Room 801)
                            Arlington, VA 22202-2884

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling
  (800) 424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or
  by writing to the Defense Hotline, The Pentagon, Washington, D.C. 20301-1900.
  The identity of each writer and caller is fully protected.




Acronyms
CTC                         Cost-to-Complete
DUSD(ES)                    Deputy Under Secretary of Defense (Environmental
                              Security)
                       Office of the Inspector General, DoD
Report No. D-2000-168                                                     July 27, 2000
  (Project No. D1999FH-0082)


        Data Supporting the Environmental Liability Line Item on
                the FY 1999 DoD Financial Statements

                                Executive Summary

Introduction. We performed this audit in response to the Chief Financial Officers Act
of 1990, as amended by the Federal Financial Management Act of 1994, which requires
DoD and other Government agencies to prepare consolidated financial statements. This
audit supports our audit of the FY 1999 DoD Agency-Wide financial statements and
future audits of financial statements. The FY 1999 DoD Agency-Wide Balance Sheet is
part of the DoD consolidated financial statements and includes a line item for
environmental liabilities. Environmental liabilities include estimated amounts for future
cleanup of environmental pollution at present and former DoD sites. The FY 1999
balance sheet reported an environmental liability of $79.7 billion for future cleanup of
sites at present and former DoD sites. The amount reported was an increase of
$45.5 billion over the $34.2 billion reported for FY 1998.

Objectives. The objective was to evaluate the reliability and completeness of the data
used to calculate the DoD environmental liability for FY 1999. We also reviewed the
adequacy of the management control program as it applied to the objective.

Results. The $79.7 billion reported for environmental liability on the FY 1999 DoD
Agency-Wide Balance Sheet was not complete or supported by underlying data, and
DoD organizations did not document cost-to-complete estimates. For example,
estimates for 30 out of 46 former DoD sites were inadequately documented, and more
than 50 percent of Air Force estimates were unsupported. Also, liabilities for weapon
system disposal were not reported. Although the Military Departments sent
implementing instructions to field activities, they were not received in time to be
incorporated into the FY 1999 environmental estimates, and additional guidance is
needed. Estimates did not include the site’s future use, establish a standard level of
cleanup, or document any deviations from a standard. Also, the full cost estimate,
including funded and unfunded amounts, was not recorded.

The $79.7 billion included $20.7 billion for weapon system disposal, including
$11.5 billion for nuclear-powered submarines and ships, and $34 billion for training
range cleanup. Reporting the amounts for weapon system disposal and disposal of
unexploded ordnance and ammunition would present the environmental liability more
accurately. As a result, the environmental liability line item in the FY 1999 DoD
Agency-Wide Balance Sheet was unverifiable and likely to be materially misstated. See
Appendix A for details on the management control program.

Summary of Recommendations. We recommend that the Deputy Under Secretary of
Defense (Environmental Security) revise the supplemental guidance to require that
environmental engineers consider the extent of cleanup and the planned use of the site
when preparing estimates of cleanup costs. We also recommend that the Under
Secretary of Defense (Comptroller) revise DoD Regulation 7000.14-R, the “DoD
Financial Management Regulation,” to require DoD organizations to report the full
amount of cost estimates, whether funded or unfunded.

Management Comments. The Deputy Under Secretary of Defense (Environmental
Security) agreed to update the guidance as recommended. The Under Secretary of
Defense (Comptroller) stated that DoD Regulation 7000.14-R already requires that cost
estimates be prepared without regard to availability of funds, and that recommendations
were made to the Deputy Under Secretary of Defense (Environmental Security) to
update Section G of the guidance, “Management Guidance for the Defense
Environmental Restoration Program.”




                                           ii
Table of Contents

Executive Summary

Introduction
     Background                                                   1
     Objectives                                                   1

Finding
     Data Supporting the FY 1999 Environmental Liability          2

Appendixes
     A. Audit Process
          Scope and Methodology                                    8
          Management Control Program                               9
          Prior Coverage                                          10
     B. Report Distribution                                       11

Management Comments
     Under Secretary of Defense (Comptroller)                     13
     Deputy Under Secretary of Defense (Environmental Security)   14
Background
     Reporting Requirements. The Chief Financial Officers Act of 1990 (the Act)
     requires Federal organizations to prepare annual audited financial statements.
     Inspectors General are required to audit all financial statements prepared under
     the Act. The Act, as amended by the Federal Financial Management Act of
     1994, requires DoD and other Government agencies to prepare agency-wide
     financial statements.

     Statutory Requirements for Environmental Cleanup. The Comprehensive
     Environmental Response, Compensation, and Liability Act (Liability Act) of
     1980, as amended by the Superfund Amendments and Reauthorization Act of
     1986, established a comprehensive framework to identify, investigate, and clean
     up releases of hazardous materials. The Liability Act provides statutory
     authority for cleanup of hazardous materials that could endanger public health,
     public welfare, or the environment. The Resource Conservation and Recovery
     Act of 1976, sections 6901 through 6992, title 42, United States Code, created a
     comprehensive Federal regulatory program for hazardous waste control.

     DoD Implementation of Liability Act. The Deputy Under Secretary of
     Defense (Environmental Security) (DUSD[ES]) is responsible for environmental
     cleanup within DoD. The DoD Office of Environmental Cleanup, as part of the
     Office of the DUSD(ES), manages the Defense Environmental Restoration
     Program. The Army, the Navy, the Air Force, and the Defense Logistics
     Agency execute the cleanup work at present and former defense locations
     nationwide, for which about $4.3 billion was budgeted for FY 1999.

     Liability for Environmental Cleanup. DoD reported the liability for
     environmental cleanup in its financial statements. The FY 1999 DoD Agency-
     Wide financial statements reported an environmental liability of $79.7 billion,
     representing the estimated cleanup cost for future years. The amount included
     $22.8 billion for the Army, $47.6 billion for the Navy, $6.3 billion for the
     Air Force, and $3 billion for the other Defense agencies. The amount is a
     significant increase over the $34.2 billion reported in FY 1998.



Objectives
     The objective was to evaluate the reliability and completeness of the data used to
     calculate the DoD environmental liability for FY 1999. We also reviewed the
     adequacy of the management control program as it applied to the objective. The
     review of the management control program is discussed in Appendix A.




                                         1
            Data Supporting the FY 1999
            Environmental Liability
            The $79.7 billion reported for environmental liabilities in the FY 1999
            DoD Agency-Wide Balance Sheet was not complete or supported by
            underlying data. The amount was incomplete and unsupported because
            new criteria for reporting environmental liabilities were not fully
            implemented at all levels, the cleanup cost estimates were not adequately
            documented, consistent procedures were not used for cost estimates, and
            significant liabilities for weapon system disposal were not shown in the
            reported liability balance. As a result, the environmental liability line
            item in the FY 1999 DoD Agency-Wide Balance Sheet was unverifiable
            and likely to be materially misstated.



Reporting Criteria for Environmental Liabilities
     Current Guidance. In August 1999, the Under Secretary of Defense
     (Comptroller) issued chapters 13 and 14 (new chapters) of DoD
     Regulation 7000.14-R, the “DoD Financial Management Regulation,”
     volume 4. Chapters 13 and 14 give guidance on reporting environmental and
     disposal liabilities. The new chapters are substantially consistent with Statement
     of Federal Financial Accounting Standards No. 5, “Accounting for Liabilities of
     the Federal Government,” December 20, 1995. In August 1999, the
     DUSD(ES) issued guidance requiring that all cleanup cost estimates be
     documented and each DoD Component ensure that its computer models conform
     to DoD Instruction 5000.61, “DoD Modeling and Simulation Verification,
     Validation, and Accreditation,” April 29, 1996.

     DoD Instruction 5000.61 requires that DoD Components establish verification,
     validation, and accreditation policies and procedures for their models and
     simulations, and that they document the results of these procedures and make
     them available to other DoD Components. Verification is the process of
     determining that a model’s implementation accurately represents the developer’s
     concepts and specifications. Validation is the process of determining the degree
     to which a model accurately represents the real world from the perspective of
     the model’s intended use. Accreditation is the official certification that a model
     or simulation is acceptable for use for a specific purpose.



Documentation
     Cost-to-complete (CTC) estimates are the source of the restoration portion of the
     environmental liability line item reported in the balance sheet. However, many
     of the estimates were not adequately documented, and the audit trail from
     estimates to the balance sheet was inadequate because reporting systems did not
     include all the amounts estimated.



                                         2
    Requirements for Audit Trails. DoD Regulation 7000.14-R, the “DoD
    Financial Management Regulation,” May 1993, chapter 3, states that accounting
    systems must have audit trails that allow transactions to be traced from initiation
    through processing to the financial statements. Transactions, including CTC
    estimates that support the environmental liability line item, must be adequately
    supported with pertinent documents and source records. DoD Regulation
    7000.14-R, volume 4, chapter 8, “Financial Control of Liabilities,”
    January 1995, also states that amounts recorded as liabilities must be supported
    by sufficient documentation to establish the basis for a claim against DoD.

    Army. Audit trails were inadequate at Army environmental activities. The
    Army Audit Agency could not attest to the accuracy and completeness of the
    $22.8 billion reported for FY 1999. For example, documentation for 30 out of
    46 formerly used Defense sites did not support the reported estimates of cleanup
    costs.

    Navy. Navy activities with environmental cleanup sites did not maintain
    adequate support for the cleanup cost estimates. The Naval Audit Service was
    unable to perform sufficient audit work to ascertain the accuracy and
    completeness of the reported environmental liability because data on the cleanup
    sites and documentation of a new version of the CTC model were not available
    in time to perform a review. As a result, the Naval Audit Service could not
    determine whether the $47.1 billion of estimates for site cleanup was
    reasonable.

    Air Force. Air Force installations could not fully support $6.3 billion in CTC
    estimates. More than 50 percent of the estimates reviewed were not supported
    by documentation, and about 75 percent of the dollar value was unsupported. In
    addition, the Air Force database of sites requiring cleanup was neither accurate
    nor complete. The Air Force auditors also used engineers who determined that
    documentation was inadequate. As a result, the Air Force Audit Agency was
    unable to attest to the accuracy of the environmental liability line item on the
    FY 1999 Air Force General Fund financial statements.

    DoD Guidance. The DUSD(ES) issued guidance on August 6, 1999, in
    response to the recommendations in Inspector General, DoD, Report
    No. 99-209, “Data Supporting the DoD Environmental Line Item Liability on
    the FY 1998 Financial Statements,” July 9, 1999. The guidance requires DoD
    Components to document CTC estimates, including narrative that explains the
    basis of the estimate and gives the date prepared, the preparer’s name, and
    evidence of supervisory approval. The guidance also requires that original
    estimates and changes in those estimates should be documented and available for
    review. The Military Departments need to create an adequate audit trail of
    cleanup cost estimates and subsequent changes. The Military Departments did
    not implement the August 6, 1999, guidance in time for the fiscal year ending
    September 30, 1999. We will review the documentation for estimates during
    our audit of environmental liabilities for FY 2000.

Estimates of Environmental Cleanup Costs
    In Inspector General, DoD, Report No. 99-209, we recommended that the
    DUSD(ES) implement guidance requiring DoD installations to use computer


                                         3
     models that are accredited at the DoD level to generate CTC estimates, and to
     use the estimates to support the installations’ total environmental liability. We
     also recommended that the guidance require documentation of the CTC
     estimates and any subsequent changes. In response to our recommendations, on
     August 6, 1999, the DUSD(ES) issued supplementary guidance for the Defense
     Environmental Restoration Program. The guidance was intended to ensure that
     the DoD Components use a consistent model for developing cost estimates and
     that an adequate audit trail is maintained to document the cost estimating
     procedures. The guidance states that each DoD Component is responsible for
     ensuring that its computer models conform to DoD Instruction 5000.61. The
     documentation must include a narrative that explains the basis of the estimate
     and gives the date prepared, the preparer’s name, and evidence of supervisory
     approval. The guidance also stated that the original estimates and changes in
     those estimates should be documented and available for review.

     The DoD Components did not implement the guidance in time to affect the
     FY 1999 financial statements, which was reflected in the lack of documentation
     for cleanup cost estimates. However, from November 1999 through
     March 2000, the Military Departments took action by issuing the supplemental
     guidance for their field activities. In our audit of environmental liabilities for
     FY 2000, we will determine whether the DoD Components have ensured that
     their computer models conform to DoD Instruction 5000.61 and that CTC
     estimates are adequately documented in accordance with the guidance from the
     DUSD(ES).



Liabilities for Weapon System Disposal
     The disposal liability reported for FY 1999 included about $20.7 billion for
     weapon system disposal. However, that amount was likely to be inaccurate and
     incomplete. During FYs 1999 and 2000, we reported that major weapon system
     programs, such as the C/KC-135 Stratotanker aircraft, the Black Hawk
     helicopter, and the Grizzly mine-clearing vehicle, did not include estimated
     disposal costs in the life-cycle cost estimates for the eventual disposal of the
     weapon systems.

     Army. DoD is required to destroy the weapon systems in its chemical
     munitions stockpile by April 29, 2007, in accordance with the 1986 DoD
     Authorization Act, subsequent amendments, and the Chemical Weapons
     Convention. The Army, as the Executive agent for DoD, manages the
     Chemical Demilitarization Program. For FY 1999, the reported liability was
     about $8.9 billion.

     Navy. In Inspector General, DoD, Report No. 99-209, we reported that the
     Navy did not include amounts for the disposal of its nuclear-powered
     submarines and ships because DoD financial guidance did not require those
     amounts to be reported. Subsequent changes in DoD Regulation 7000.14-R
     required the amounts to be reported, and the Navy complied. We estimated the
     liability to be between $6.7 billion and $13.2 billion, based on General
     Accounting Office estimates applied to our research on the number of nuclear-
     powered submarines and ships in the fleet. For FY 1999, the Navy took


                                          4
     significant actions and reported $11.5 billion for nuclear-powered submarine
     and ship disposal. The Navy estimate is within our estimated range for
     FY 1998, and is a reasonable estimate for FY 1999, based on our prior year
     evaluation, and reflects well on the Navy’s commitment to fully report on its
     environmental liabilities.

     Air Force. The Air Force did not include any amount for weapon system
     disposal liabilities. The General Accounting Office and the Inspector
     General, DoD, have reported that Air Force weapon systems will eventually
     have environmental and disposal costs that can be estimated. Because of the
     omission, the Air Force portion of the DoD environmental liability balance was
     understated. However, we were unable to quantify the value of the
     understatement.



Training Ranges
     DoD reported about $34 billion as the liability for environmental cleanup of
     training ranges. Of that amount, the Navy reported $30.7 billion for cleanup of
     its ranges. The Army and the Air Force reported about $2.4 billion and
     $0.8 billion, respectively. Final DoD guidance for reporting liabilities for the
     cleanup of training ranges is not expected to be published until at least
     October 2000. The reporting of those amounts represents a significant
     improvement over the FY 1998 financial statements, on which liabilities for
     cleanup of training ranges were not recognized or reported.



Extent of Site Cleanup
     Environmental engineers responsible for preparing estimates of site cleanup
     costs stated that the level of cleanup required is not always clear. For example,
     a site with a designated end use as a school or day-care center would require
     more extensive cleanup than would a site designated for heavy industrial use.
     The more extensive the cleanup, the more costly it will be. Therefore,
     environmental engineers should consider a site’s future use when preparing an
     estimate of cleanup costs.

     The DUSD(ES) supplemental guidance for preparing estimates of cleanup costs
     did not address the future use of a site. When a site’s future use has not been
     determined, the estimate should be prepared to a predetermined standard. The
     standard could be a requirement established by the Environmental Protection
     Agency or a defined level or concentration of a pollutant. When an estimate is
     prepared, considering the future use of a site, environmental engineers should
     document any deviation from the standard to include the reason. DoD activities
     responsible for estimating environmental cleanup costs should specify the
     assumed level of cleanup used in their cost estimating methodologies.




                                         5
Budget Considerations
    Cleanup cost estimates that Army and Air Force environmental engineers
    prepared were influenced by budgetary concerns. When estimates were
    reviewed at the major command level, modifications were sometimes made to
    reflect budgetary considerations. For financial reporting purposes, the entire
    site cleanup cost must be accrued as a liability. Accordingly, Military
    Departments must report the full cost estimate in the environmental liability line
    item, and reflect funded and unfunded amounts in the footnotes. In addition,
    documentation must be maintained to support not only the environmental
    engineering estimates, but any modifications made to the estimates as the result
    of command review.



Conclusion
    Although the amount reported for environmental liabilities on the FY 1999
    balance sheet includes some estimates for weapon system disposal, cleanup of
    training ranges, and chemical weapons disposal, the amount was not supported
    by underlying data and was not complete. The $79.7 billion reported for the
    FY 1999 environmental liability was significantly more accurate than the
    $34.2 billion reported for FY 1998. However, the reported environmental
    liability was incomplete and unsupported because DoD did not fully implement a
    comprehensive and reasonable set of procedures designed to:

           •   ensure reasonably accurate estimates of environmental cleanup costs
               and all weapon system disposal costs; and

           •   create an audit trail for the entire process.

    As a result, the environmental liability reported for FY 1999 remained
    unreliable and unauditable. During FY 2000, however, the Military
    Departments will implement the guidance dated August 6, 1999, from the
    DUSD(ES), which requires that future cost estimates be fully documented. The
    action is responsive to the problem. However, additional guidance is needed to
    improve consistency and accuracy of estimates and to ensure that field-level
    personnel are implementing the guidance. Environmental engineers should
    include a cleanup site’s future use in their cleanup cost estimate, establish a
    standard level of cleanup, and document any deviations from the standard.
    Additionally, the Military Departments should record the full cost estimate,
    including funded and unfunded amounts, for inclusion in the financial
    statements. In our audit of FY 2000 environmental liabilities, we will review
    documentation to test the implementation of the supplemental guidance.




                                         6
Recommendations, Management Comments, and Audit
  Response
    1. We recommend that the Deputy Under Secretary of Defense
    (Environmental Security) amend the supplemental guidance to require that:

            a. methodologies for estimating cleanup costs include the assumed
    level of cleanup and the future use of the sites;

           b. a quantifiable standard level of cleanup be used to prepare
    estimates;

          c. any deviations from the standard are documented, and
    supporting rationale given; and

           d. the Military Departments implement the supplemental guidance.

    Deputy Under Secretary of Defense (Environmental Security)
    Comments. The Deputy Under Secretary of Defense (Environmental Security)
    concurred with the recommendation and will update the “Management Guidance
    for the Defense Environmental Restoration Program” during Calendar Year
    2000. The update will be in accordance with the audit recommendations

    2. We recommend that the Under Secretary of Defense (Comptroller)
    revise DoD Regulation 7000.14-R, “Financial Management Regulation,”
    volume 4, chapters 13 and 14, August 1999, to require that the full amount
    of cost estimates for environmental cleanup be reported without regard to
    the availability of budgetary resources.

    Under Secretary of Defense (Comptroller) Comments. The Under Secretary
    of Defense (Comptroller) concurred with the recommendation, stating that the
    requirement to report the full cost estimate for environmental cleanup is already
    stated in DoD Regulation 7000.14-R, volume 4, chapters 13 and 14. The Under
    Secretary also provided recommended changes to the “Management Guidance
    for the Defense Environmental Restoration Program” to the Deputy Under
    Secretary of Defense (Environmental Security), to require that the full amount
    of the estimate be reported.




                                        7
Appendix A. Audit Process

Scope and Methodology
    Scope. We reviewed the data supporting the $79.7 billion environmental
    liability line item reported on the FY 1999 DoD Agency-Wide Balance Sheet.
    Specifically, we:

           •   evaluated updated guidance in DoD Regulation 7000.14-R on
               reporting environmental and disposal liabilities and guidance issued
               by the DUSD(ES) requiring documentation of environmental cleanup
               cost estimates;

           •   reviewed and directed the work of Army Audit Agency, Naval Audit
               Service, and Air Force Audit Agency auditors on the environmental
               liability line items of the Military Departments’ financial statements;
               and

           •   determined the degree to which the reported environmental liability
               balance was supportable.

    Limitation to Scope. We did not test the accuracy of the environmental
    restoration cost estimates because many of the estimates were undocumented and
    could not be reviewed for accuracy by comparing them to historical data from
    other cleanup efforts. The limitation in scope did not materially affect the audit
    results.

    Use of Computer-Processed Data. We did not use computer-processed data to
    support the audit conclusions.

    DoD-wide Corporate-Level Government Performance and Results Act
    Coverage. In response to the Government Performance and Results Act, the
    Secretary of Defense annually establishes DoD-wide corporate-level goals,
    subordinate performance goals, and performance measures. This report pertains
    to achievement of the following goal, subordinate performance goal, and
    performance measures.

           • FY 2001 DoD Subordinate Performance Goal 2.5: Improve DoD
             financial and information management. (01-DoD-2.5)

           • FY 2001 Performance Measure 2.5.1: Reduce the number of
             noncompliant accounting and finance systems. (01-DoD-2.5.1.)

           • FY 2001 Performance Measure 2.5.2: Achieve unqualified opinions
             on financial statements. (01-DoD-2.5.2.)




                                        8
    DoD Functional Area Reform Goals. Most major DoD functional areas have
    also established performance improvement reform objectives and goals. This
    report pertains to achievement of the following functional area objective and
    goal.

           • Financial Management Objective: Strengthen internal controls.
             Goal: Improve compliance with the Federal Managers’ Financial
             Integrity Act. (FM-5.3)

    General Accounting Office High-Risk Area. The General Accounting Office
    has identified seven high-risk areas in DoD as of April 16, 1999. This report
    provides coverage of the Defense financial management high-risk area.

    Audit Type, Dates, and Standards. We performed this financial-related audit
    from October 1999 through March 2000 in accordance with audit standards
    issued by the Comptroller General of the United States, as implemented by the
    Inspector General, DoD. Accordingly, we included tests of management
    controls considered necessary.

    Contacts During the Audit. We visited or contacted individuals and
    organizations within DoD. Further details are available on request.



Management Control Program
    DoD Directive 5010.38, “Management Control (MC) Program,” August 26,
    1996, and DoD Instruction 5010.40, “Management Control (MC) Program
    Procedures,” August 28, 1996, require DoD managers to implement a
    comprehensive system of management controls that provides reasonable
    assurance that programs are operating as intended and to evaluate the adequacy
    of those controls.

    Scope of Review of the Management Control Program. We reviewed the
    FY 1999 Annual Statements of Assurance of the Military Departments. We also
    reviewed the results of audits by the Army Audit Agency and the Air Force
    Audit Agency.

    Adequacy of Management Controls. We identified material management
    control weaknesses for FY 1999, as defined by DoD Directive 5010.38.
    Although DoD guidance on accounting for environmental liabilities was
    published during FY 1999, policies and procedures were not implemented at all
    levels in time to ensure that cost estimates and changes for FY 1999 were
    adequately documented and that computerized cleanup cost estimates were
    adequate and were used as appropriate. However, during FY 2000, the Military
    Departments issued the supplemental DoD guidance that, if followed, will
    correct the material weaknesses and improve the accuracy and reliability of the
    environmental liability line item on the balance sheet in future years.
    Therefore, we are not making a recommendation to correct the material
    management control weakness. A copy of this report will be provided to the
    senior officials responsible for management controls in the Offices of the Under
    Secretary of Defense (Comptroller) and the DUSD(ES).


                                       9
    Adequacy of Management’s Self Evaluation. We reviewed management’s
    self-evaluation program for the Military Departments. The FY 1999 Air Force
    Annual Statement of Assurance reported that management controls were not
    sufficient to ensure that contingent liabilities were properly identified and
    accurately reported in the FY 1999 Air Force General Fund financial
    statements. The target date for fixing management controls was changed from
    FY 1999 to “to be determined” because DoD Regulation 7000.14-R included
    new guidance on the treatment of environmental liabilities. The FY 1999 Navy
    Annual Statement of Assurance reported that the Navy did not accurately
    identify or adequately budget for legally mandated environmental projects
    because the management control system for budgeting environmental control
    projects was not adequate. The management control system for budgeting
    environmental projects is the same system the Navy uses for reporting
    installation environmental liabilities. The FY 1999 Army Annual Statement of
    Assurance noted that the Army pollution prevention program was not fully
    effective. The statement noted that policymaking is separate from funding,
    which creates an accountability issue in the environmental program. The results
    indicator for resolution is improved accounting for environmental costs and
    liabilities across all mission areas.

    The Military Departments recognized that environmental liabilities were not
    being accurately reported, noted this condition in their Annual Statements of
    Assurance, and took action to report their environmental liabilities more
    accurately in the future. The actions taken, if fully implemented, will correct
    the weaknesses disclosed in the Military Departments’ Annual Statements of
    Assurance.



Prior Coverage
    The General Accounting Office; the Inspector General, DoD; the Army Audit
    Agency; and the Air Force Audit Agency have issued audit reports related to
    environmental liabilities during the last 5 years. General Accounting Office
    unrestricted reports can be accessed on the Internet at www.gao.gov. Inspector
    General, DoD, unrestricted reports can be accessed on the Internet at
    www.dodig.osd.mil. Army Audit Agency unrestricted reports can be accessed
    on the Internet at www.hqda.army.mil. Air Force Audit Agency unrestricted
    reports can be accessed on the Internet at www.afaa.hq.af.mil.

    Inspector General, DoD, Report No. 99-209, “Data Supporting the
    Environmental Line Item Liability on the FY 1998 Financial Statements,”
    July 9, 1999, also addresses issues concerning the FY 1999 financial statements.




                                        10
Appendix B. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense (Comptroller)
  Deputy Chief Financial Officer
     Director for Accounting Policy
  Deputy Comptroller (Program/Budget)
Deputy Under Secretary of Defense (Environmental Security)
Director, Defense Logistics Studies Information Exchange

Department of the Army
Auditor General, Department of the Army

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force

Other Defense Organizations
Director, Defense Contract Audit Agency
Director, Defense Finance and Accounting Service
Director, Defense Logistics Agency
Director, National Security Agency
   Inspector General, National Security Agency
Inspector General, Defense Intelligence Agency




                                          11
Non-Defense Federal Organizations and Individuals
Office of Management and Budget
General Accounting Office
  National Security and International Affairs Division
      Technical Information Center

Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Management, Information, and Technology,
  Committee on Government Reform
House Subcommittee on National Security, Veterans Affairs, and International
  Relations, Committee on Government Reform




                                          12
Under Secretary of Defense (Comptroller)
Comments




                   13
Deputy Under Secretary of Defense
(Environmental Security) Comments




                    14
Audit Team Members
   The Finance and Accounting Directorate, Office of the Assistant Inspector
   General for Auditing, DoD, prepared this report.

     F. Jay Lane
     Salvatore D. Guli
     David F. Vincent
     Thomas J. Winter
     Joseph A. Powell
     Jonathan M. Rabben
     Alberto T. Rodriguez
     Leon D. Bryant
     Noelle Blank
